<html>
<title> - PROPOSED PLAZA FOR THE JOHN F. KENNEDY CENTER FOR THE PERFORMING ARTS</title>
<body><pre>[Senate Hearing 107-998]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-998

 PROPOSED PLAZA FOR THE JOHN F. KENNEDY CENTER FOR THE PERFORMING ARTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 4, 2002

                               __________

  Printed for the use of the Committee on Environment and Public Works


                                 ______

83-694              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             second session
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico
                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 4, 2002
                           OPENING STATEMENTS

Corzine Hon. Jon S., U.S. Senator from the State of New Jersey...     7
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     1

                               WITNESSES

Kaiser, Michael, president, John F. Kennedy Center for the 
  Performing Arts................................................     3
    Prepared statement...........................................    21
Peters, Hon. Mary, Administrator, Federal Highway Administration 
  accompanied by: Art Hamilton, Associate Administrator, Federal 
  Lands Highway Office; Doug Lard, Community Planner.............     2
    Prepared statement...........................................    15
Tangherlini, Dan, acting director, District of Columbia 
  Department of Transportation...................................     5
    Prepared statement...........................................    20

 
                         PROPOSED PLAZA FOR THE
                         JOHN F. KENNEDY CENTER
                        FOR THE PERFORMING ARTS

                              ----------                              


                         TUESDAY, JUNE 4, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m. in room 
406, Senate Dirksen Building, Hon. James M. Jeffords (chairman 
of the committee) presiding.
    Present: Senators Jeffords and Corzine.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Good morning, everyone. I would like to 
extend a special welcome to each of the witnesses here this 
morning. President John F. Kennedy, in a 1963 speech at Amherst 
College, said it best: ``Art establishes the basic human truths 
which must serve as the touchstone of our judgment.'' The 
performing arts teach us these important truths through 
Sondheim and Gershwin, through Baryshnikov and Bach. For over 
30 years we have had the good fortune of having the Kennedy 
Center serve as our national classroom.
    The John F. Kennedy Center for the Performing Arts began as 
the National Cultural Center in 1958. During the early 1960's, 
President Kennedy led a charge to raise funds for this national 
center for the performing arts. In January 1964, Congress 
dedicated the National Cultural Center as a living memorial to 
President Kennedy, in recognition of his tireless efforts to 
promote the arts.
    Since its opening Requiem in 1971, the Kennedy Center has 
presented a unique perspective in the development of our 
national identity through the performing arts. But to continue 
to serve as a national symbol for arts and a model for arts 
education for students, both young and old, the Kennedy Center 
must grow. As part of the growing process, the Department of 
Transportation conducted a comprehensive study of ways to 
improve access to the Kennedy Center. The study proposes some 
ambitious infrastructure enhancements to the Center, with many 
public and private partners.
    The goal of the enhancements is to improve access to the 
Center and to link the Center to the national Mall and the 
surrounding neighborhoods. The goal of the enhancements is also 
to provide more rehearsal and education space for the Kennedy 
Center.
    To meet this goal, the study proposes construction of a 
plaza on top of the maze of city streets and Interstate 66 
running in front of the Center, and construction of a rehearsal 
and education center on top of the plaza. Today we convene to 
discuss this proposal.
    I have long been a supporter of the arts and applaud the 
Kennedy Center's efforts and mission as an international 
Ambassador of the performing arts. But the proposal before us 
today represents a major construction project and major 
construction projects are expensive. I am concerned about the 
lack of an accurate estimate for the project, and I hope 
today's hearing will clarify some of the uncertainties 
surrounding the cost of the project.
    I am also hopeful that today's panel will help us better 
understand the role each entity will play if the proposed plaza 
project moves forward. Again, thank you for coming today.
    Ms. Peters, please proceed. I look forward to your 
testimony.

 STATEMENT OF HON. MARY PETERS, ADMINISTRATOR, FEDERAL HIGHWAY 
    ADMINISTRATION ACCOMPANIED BY: ART HAMILTON, ASSOCIATE 
   ADMINISTRATOR, FEDERAL LANDS HIGHWAY OFFICE; DOUG LAIRD, 
                       COMMUNITY PLANNER

    Ms. Peters. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before you today. I will submit a much 
more comprehensive statement for the record, but I have a few 
brief oral remarks I would like to make.
    As you have indicated, the John F. Kennedy Center for the 
Performing Arts is a wonderful attribute to this area. With me 
here today are Art Hamilton, who is the Associate Administrator 
for the Federal Lands Highway Office, and Doug Laird, a 
community planner who has led the Federal Highway 
Administration efforts on the Kennedy Center for the past 3 
years. These gentlemen are right behind me and can assist me in 
any detailed questions.
    Much of the information presented in my statement, which I 
have submitted for the record, is drawn from the Kennedy Center 
Access Study mandated by TEA-21 and transmitted to Congress in 
March 2001. The study was a cooperative effort of the Kennedy 
Center, the District of Columbia, the National Park Service and 
Federal Highway Administration.
    The Center attracts over 5 million visitors a year. 
However, compromises in the Center's design, including its 
placement, as you indicated, Senator, between I-66 and the 
Potomac River, make getting to the Center very difficult. 
Nearly 200,000 vehicles use the roads around the Center each 
day. Chronic, recurring congestion is a continuing problem.
    There is no direct pedestrian or bicycle access to the 
Center from the National Mall, and there are inadequate 
connections from the river front. Pedestrians and bicyclists 
who approach the Center from the south too frequently dash 
across Rock Creek Parkway to the Center. In fact, I did that 
myself with a bicycle just recently.
    Pedestrians from Georgetown face an indirect, unlit, and 
under-developed path. In the absence of a clear walkway from 
the east, pedestrians sometimes sprint across Interstate 66, 
and the bicycle connection to the Custis Trail crosses an I-66 
off-ramp. The Foggy Bottom Metro station is a half mile from 
the Center. The Center runs a shuttle service between Metro and 
the Performing Arts Center; however, the route runs on local 
streets through an historic neighborhood. Visitors who choose 
to walk often have difficulty finding the Center, since there 
are no signs to guide them.
    The Access Study presented many improvements to make 
getting to and from the Center safer and easier. Among these 
are, as you mentioned, a plaza set atop a deck over Interstate 
66 to re-establish a local street grid to the east; 
modifications to E Street to link the Center with the core of 
the city; a stairway to link the Kennedy Center Terrace to the 
river front; grade separation of the complex intersection of 
Ohio Drive with the terminus of Interstate 66 and Rock Creek 
Parkway to relieve hazardous conditions and congestion; and new 
connections between Rock Creek Parkway and Interstate 66 to 
reduce traffic on the parkway, improve the traffic flow on 
Interstate 66, and relieve congestion and address safety 
hazards at the Virginia Avenue, Rock Creek Parkway-27th Street 
intersections.
    I know the committee is concerned about the cost of this 
project. In my full statement, I outline the preliminary cost 
estimates developed during the Access Study. I also outlined 
some of the factors that may lead to increases in these cost 
estimates. An environmental assessment is underway using funds 
provided in the 2001 DOT appropriations act. Preliminary 
engineering is part of that assessment, and we expect this work 
to be completed in February 2003. Those projects are on 
schedule as we speak.
    Initial site investigations are only now beginning. We will 
achieve greater certainty about project costs when the 
environmental assessment and the engineering analyses are 
completed in February 2003. I would be happy to provide updated 
cost information to the committee at that.
    With a complex project of this nature, the role of each 
agency responsible for the enterprise should be carefully 
defined at the onset of a project. A detailed memorandum of 
agreement will provide a firm foundation for success, while 
including flexibility so the various parties can adapt to 
unforeseen circumstances.
    Mr. Chairman, the Federal Highway Administration is 
committed to work with the Kennedy Center, the District of 
Columbia, the National Park Service and other Federal and local 
level entities to improve the Kennedy Center. We look forward 
to working with this committee to ensure the transportation 
system around the Center serves it well and all residents in 
the area in the best possible manner.
    I again appreciate the opportunity to make brief remarks 
this morning and would be pleased to answer any questions you 
may have.
    Senator Jeffords. Mr. Kaiser.

STATEMENT OF MICHAEL KAISER, PRESIDENT, JOHN F. KENNEDY CENTER 
                    FOR THE PERFORMING ARTS

    Mr. Kaiser. Mr. Chairman, I am pleased to be able to appear 
before you today to lend my strong support for legislation that 
will increase substantially access to the performing arts, and 
to arts education, for children and adults in the District of 
Columbia and throughout the United States.
    If enacted, the legislation before you will buildupon the 
success of the Kennedy Center since its founding in 1971 by 
providing greatly enhanced physical access to those living in 
or visiting the District of Columbia, and by creating the 
resources required to improve the services of the Kennedy 
Center that we can offer outside of the District in all 50 
States.
    This legislation therefore provides a natural development 
of the original vision for the Kennedy Center. The Kennedy 
Center is both our national arts center and a living memorial 
to President Kennedy. I emphasize the word living, because 
unlike other memorials, whose beauty lie primarily in their 
structures, the importance of the Kennedy Center also lies 
within the people whose lives it touches. Each year, thousands 
of musicians, dancers, actors and actresses bring performances 
to life. Over 5 million school children in all 50 States 
benefit from our outreach and educational programs each year. 
Millions of patrons enjoy performances at the Kennedy Center, 
and millions of tourists visit simply to see our Nation's 
tribute to President Kennedy.
    The reach of the Kennedy Center has grown beyond what 
anyone could have envisioned when the National Cultural Center 
was first authorized in 1958. But much more remains to be done. 
The proposal before this committee will ensure that the Kennedy 
Center's physical facilities can support our enhanced vision of 
this Nation's living arts memorial in two important ways. 
First, the legislation will expand access to the Kennedy 
Center. The reconfiguration of the roadways and the 
construction of the new plaza will make physically accessing 
the Kennedy Center more user friendly. Traffic will be routed 
more directly to the Kennedy Center and new bike trails and 
pedestrian paths will make alternative methods of access a 
reality.
    These changes not only provide physical access, but also 
will finally link the Kennedy Center to the rest of the 
District. Currently, the Kennedy Center is an island in a sea 
of roadways. As envisioned in the Department of 
Transportation's report, the reconfigured roadways, bike trails 
and pedestrian paths will link the Kennedy Center more directly 
to other important landmarks and the Mall. More than four 
decades after it was envisioned, the Kennedy Center will 
finally become linked to the heart of our Capital's memorials.
    Access will be increased not only in a physical sense, but 
also in terms of the potential audience. With the expansion of 
the Kennedy Center through the creation of the plaza and the 
construction of two buildings on the plaza, more opportunities 
for reaching new audiences can be realized. The increased green 
space around the Kennedy Center makes consideration of outdoor 
concerts viable. New rehearsal space that expands the 
possibility of master classes or a greater variety of new 
pieces created for smaller venues. The greater the variety of 
the artistic works that can be brought to the Kennedy Center, 
the broader the audience that the Kennedy Center can reach, a 
vital goal of an art center charged with serving a 
multicultural Nation.
    The proposal will also help the Kennedy Center fulfill 
another important part of its mandate, to educate the Nation 
about the performing arts. One of the new plaza buildings will 
be dedicated solely to this mission. The new building will 
house displays on the history of the performing arts, drawing 
from the collections of the Library of Congress and the 
Smithsonian Institution. Visitors will also be able to 
experience life in the arts through interactive displays that 
allow them to take part in such activities as conducting an 
orchestra or designing sets and costumes.
    The future of the performing arts in our Nation is 
dependent on educating children about this Nation's rich arts 
heritage and the joy of involvement in the arts. This new 
building, dedicated to educating our citizens about our 
Nation's rich performing arts history and increasing an 
understanding of the potential of our arts future is an 
essential component of fulfilling the Kennedy Center's role as 
our national culture center.
    I am proud of all that the Kennedy Center has accomplished 
over the last 31 years. It has sealed its place as the center 
of our Nation's performing arts. It has honored President 
Kennedy's memory with continuous arts performances. It has 
educated generations of Americans about all that is great in 
our Nation's performing arts.
    The Kennedy Center is now prepared to buildupon its success 
in this new century. As in the past, we will work in 
partnership with Congress to bring the shared vision of an 
expanded national performing arts center to life. The new 
buildings in the plaza will be constructed with privately 
raised funds. This will be no small undertaking on the part of 
the Kennedy Center. However, I am confident the private funds 
required can be identified.
    The growing enthusiasm for the activities of the Kennedy 
Center can be seen in the increasing levels of private support 
we have enjoyed recently. This fiscal year alone, the Kennedy 
Center will raise more private money than ever before in its 
history, increasing contributed revenue over 25 percent more 
than the previous year during a difficult economic period.
    I feel confident, therefore, that the partnership and 
shared vision that have bolstered the Kennedy Center to a level 
of success not imagined at its inception will bring this 
project to fruition.
    Everyone at the Kennedy Center is deeply grateful to this 
committee for its consideration of this legislation and its 
past support, and especially to you, Mr. Chairman, for your 
continuing interest in the arts and education of this Nation.
    We would also like to acknowledge the tremendous support we 
have received from the Department of Transportation and 
Secretary Mineta and the District of Columbia and Mayor 
Williams. I stand ready to work with Congress, with the 
Department of Transportation and with the District of Columbia 
to realize this vision for our Nation's arts center. I am 
confident that our historic partnership will bring unimaginable 
benefits to our Nation through an expanded and more accessible 
John F. Kennedy Center for the Performing Arts.
    Thank you.
    Senator Jeffords. Thank you, Mr. Kaiser.
    Mr. Tangherlini.

  STATEMENT OF DAN TANGHERLINI, ACTING DIRECTOR, DISTRICT OF 
             COLUMBIA DEPARTMENT OF TRANSPORTATION

    Mr. Tangherlini. Good morning, Chairman Jeffords. Thank you 
very much for this opportunity to speak before the Committee on 
Environment and Public Works. My name is Dan Tangherlini, and I 
am the acting director of the District of Columbia Department 
of Transportation. I have the honor of representing Mayor 
Anthony Williams today before you.
    The John F. Kennedy Center for the Performing Arts is a 
major national tourist attraction, and the Washington region's 
premier entertainment venue. In the year 2000, the U.S. 
Department of Transportation published the Kennedy Center 
Access Study that was authorized by the Congress in 1998. The 
District Department of Transportation participated in this 
study, and is assisting in the subsequent environmental 
analysis currently underway.
    The District Department of Transportation recognizes the 
Kennedy Center's severe transportation access constraints. The 
2000 study documents the problems, including the series of 
freeways and parkways surrounding the Center, which serve to 
isolate it from both the District neighborhoods and the 
National Mall. Evening commuter traffic congestion on Rock 
Creek Parkway and Potomac Freeway and ramps to the Theodore 
Roosevelt Bridge interferes with the performance-bound traffic 
to the Center. An absence of pedestrian and bicycle facilities 
offering safe and direct routes to the Center, and inadequate 
access to the facility by public transit. The study notes that 
the Foggy Bottom Metro station, the Metro rail station closest 
to the Kennedy Center, is one half mile away.
    The centerpiece of the proposed transportation access 
improvements would be the creation of a plaza which would carry 
E Street Northwest directly into the Kennedy Center. The plaza 
would be created by constructing a deck over the Potomac 
Freeway. The plaza would include a public square and two 
building sites on either side of the extended E Street 
Northwest.
    The D.C. Department of Transportation strongly supports 
transportation improvements which will eliminate the Kennedy 
Center's physical isolation and connect the Center with the 
Foggy Bottom neighborhood and the monumental core of the city. 
We also support the aesthetic vision of restoring the L'Enfant 
plan street grid, and economic opportunities that may be 
created by the project.
    We respectfully suggest that the Federal Government should 
fund this project through a special appropriation which would 
not impact the District's annual allocation of Federal aid, and 
that the Federal Highway Administration should construct the 
improvements. The Center's initial design concept provided 
pedestrian access to the Potomac River and vehicular access for 
the Rock Creek and Potomac Parkway. Yet due to funding 
constraints, the Kennedy Center was built in its isolated 
environment.
    The level of improvements recommended by the study to 
correct the original access deficiencies is extensive. The 
Access Study places the cost of the improvements at roughly 
$270 million. By contrast, the District Department of 
Transportation spent approximately $255 million in construction 
activity for all of fiscal year 2001. Our entire annual 
apportionment and allocation for the current fiscal year is 
roughly $125 million.
    The District Department of Transportation cautions that the 
proposed improvements should not be considered independently of 
the District of Columbia's transportation network. The District 
is currently engaged in a study to develop solutions to the 
structural and operational constraints of the Theodore 
Roosevelt Memorial Bridge. The Kennedy Center Access Study 
should be closely coordinated with the bridge study.
    In turn, both of these projects must be considered within 
the larger context of land use and transportation planning in 
the west end. To adequately address transportation problems in 
the area, including the Kennedy Center, a comprehensive 
approach should include a corridor encompassing the Whitehurst 
Freeway, lower K Street, straight through to the Roosevelt 
Bridge, with the Kennedy Center access being part of it.
    In its discussion of the Kennedy Center in the Legacy Plan, 
the National Capital Planning Commission states that a 
successful transportation plan must extend beyond physical 
improvements, and that behavioral changes must occur. It 
explains that employers must develop traffic management 
programs to reduce congestion and travel times, and that more 
people should be incented to use mass transit. A comprehensive 
transportation planning approach to solutions would truly weave 
access to the Kennedy Center into the transportation fabric of 
the District of Columbia.
    Thank you again for the opportunity to provide this 
testimony.
    Senator Jeffords. Thank you.
    This is a very fascinating event and hopefully we will all 
be able to work together.
    I want to recognize Senator Corzine now for any statement 
he might like to make.
    Senator Corzine. Thank you, Mr. Chairman.

OPENING STATEMENT OF HON. JON S. CORZINE, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Corzine. I appreciate your holding the hearing. I 
feel somewhat conflicted, since I actually am on the board of 
trustees of the Kennedy Center, and very much supportive of the 
initiatives. So I have to be careful about my conflicts of 
interest with regard to this. It is an important reality of the 
future of one of the great national cultural assets that we 
deal with these programs.
    I hope that we will have the ability to support 
financially, but I also appreciate the comprehensive nature of 
how we need to be thinking about this in the overall budgeting 
affairs of the District. I'm pleased to be here and look 
forward to your serious questioning, since I've had my 
opportunity at another time and place.
    I also welcome Mr. Kaiser, who has done a terrific job of 
leading the Center.
    Senator Jeffords. Thank you, and we appreciate your 
endeavors, working with the Kennedy Center, and look forward to 
working with you on this project.
    Ms. Peters, as I mentioned in my opening statement, I am 
concerned about the potential costs of those project. In 
meetings between our staffs, the discussions of costs have gone 
well beyond the $269 million mentioned in the Access Study. Can 
you discuss what factors would cause the costs of the project 
to increase, for example, will there be added security costs 
and other costs that we haven't even considered, as well as the 
rather daunting price tag?
    Ms. Peters. Certainly, Senator, I would be pleased to 
discuss that. As Mr. Tangherlini indicated, the cost estimate, 
the preliminary estimated capital cost estimate at the 
conclusion of the Kennedy Center Access Study is right around 
$270 million. This includes a contingency amount which is 
appropriate at this stage, given that there are a number of 
unknown factors.
    The factors that we feel would most affect a cost increase 
of any kind would be the utilities, especially old utilities 
that may not have been abandoned and that may still be active 
within the project site area. Some of these may include highly 
secure lines that lead to the Pentagon and State Department. We 
have had concerns with these lines in past projects and would 
want to look at that.
    Another factor is the Dulles Interceptor, a major sewer 
line which goes to the Blue Plains, that apparently goes 
directly in front of the Kennedy Center. Depending on parking 
garages and connections in between them, there could be a 
conflict with that particular line. Then of course the plaza. 
Much is yet to be determined on the size of the plaza, and the 
proposed buildings. There are several design unknowns, 
including whether the tunnel underneath will require 
ventilation systems or other accommodations.
    In a general sense, contract growth for projects in the 
metropolitan Washington, DC area has averaged about 8 percent 
since 1997. We would need to include a 2 percent per year 
inflator to costs because these costs are in current or 2000-
year dollars. Our Eastern Federal Lands division currently 
estimates about a 10 percent contingency cost for all projects 
in the District of Columbia metropolitan area. In projects 
outside of the District of Columbia metropolitan area, we would 
normally use about a 5 percent contingency factor.
    Again, our Eastern Federal Lands division, which is the 
division of the Federal Highway Administration and Department 
of Transportation working most closely on this project normally 
at the planning stage would include about a 35 percent 
contingency factor. A 40 percent contingency factor has been 
included in the planning estimate to date.
    As I indicated in my oral testimony, in February 2003, we 
will have plans at about a 10 to 15 percent completion level, 
and we will have completed the environmental assessment. We 
believe that we could have a much firmer handle on costs at 
that point in time.
    Senator Jeffords. Thank you. It's my understanding that 
completion of the environmental assessment will help to more 
accurately estimate what the project will cost. Can you discuss 
when the environmental assessment will be completed?
    Ms. Peters. Sir, we are on schedule right now to complete 
that environmental assessment in February 2003 and feel very 
comfortable that we will be able to complete it at that date.
    Senator Jeffords. As you know, we are well underway in our 
hearing process on the reauthorization of the Surface 
Transportation program. I expect that we will be debating a 
bill in the Senate next spring. Would you outline the 
Administration's process and schedule for reauthorization and 
give me an indication of your progress to date?
    Ms. Peters. Certainly, sir. Within the Department of 
Transportation right now, each of the modal administrations 
working with the Assistant Secretary for Policy have been 
developing broad general parameters for a reauthorization 
proposal. We intend to brief the Secretary and the Deputy 
Secretary on those proposals within the month of June and then 
begin to firm up the Administration's proposal through the late 
summer. We will submit the proposal with the President's 2003 
budget, but certainly expect to have substantive discussions 
with this committee and with you, sir, in the interim.
    Senator Jeffords. Are there ways to improve the vehicular 
and pedestrian access to the Kennedy Center without undertaking 
this major construction project?
    Ms. Peters. Senator, it is my belief that it would be very 
difficult to tackle the number of transportation challenges 
that we have in the area today without looking comprehensively 
at it. I think Mr. Tangherlini made an excellent point, that we 
not only need to look at the Access Study for the Kennedy 
Center, but also look at the interrelationship of those 
proposed changes to the Center to other projects in the area.
    Based on the Access Study, we believe that the proposals 
made in the Access Study would best correct the transportation 
challenges in the area of the Kennedy Center today.
    Senator Jeffords. Can you please discuss in detail the role 
your agency will play in the construction of the plaza? 
Specifically, can you address ownership during the various 
phases of the project? It is my understanding that the Kennedy 
Center will become the owner of the plaza at the project's 
completion. What about before the project's completion? Can you 
discuss the role you envision other entities playing in the 
project?
    Ms. Peters. Certainly, sir. And sir, if I may, I would like 
to consult with Douglas Laird. Doug has been the community 
planner. I want to make sure I don't misspeak in terms of the 
various roles during construction. [Turns to speak to aide.]
    Sir, thank you for the opportunity to consult with Mr. 
Laird. The District owns the Interstate, the District of 
Columbia, and it would remain in its ownership. We would act in 
the role of a contractor, the Federal Highway Administration, 
and specifically the Eastern Public Lands Office would act as a 
contract administrator and contractor during the active 
construction of the project.
    Senator Jeffords. Has the issue of the project air rights 
been resolved with the District?
    Ms. Peters. Again, let me check with Mr. Laird, but I 
believe that is the District's responsibility as well.
    Sir, they have not yet been resolved. It is expected that 
the District and the Kennedy Center management will come to 
resolution on the use of the air rights in the near future.
    Senator Jeffords. Mr. Kaiser, what is the Kennedy Center 
currently doing in the area of arts education? Could you give 
us a little brief information on that?
    Mr. Kaiser. Certainly. The Kennedy Center is the largest 
independent arts educator in the country. Next year we will 
spend $15 million directly in arts education programming in all 
50 States. We have a myriad of services, several are based here 
in Washington, but I think more importantly are the services we 
offer throughout the country.
    We work in 87 cities throughout the United States to train 
teachers and to train school boards and school districts to 
bring the arts into the classroom. We have a distance learning 
program that allows up to 300,000 children throughout the 
United States to participate in any one educational program 
that we might host at the Kennedy Center. We maintain a web 
site called Arts Edge which gives lesson plans and teaching 
guides to teachers throughout the United States who wish to 
bring arts into the classroom.
    We are the largest touring group of theater for children 
throughout the United States. We commission up to six plays a 
year and tour those to all 50 States each year. We bring the 
National Symphony Orchestra, part of the Kennedy Center, each 
year in what's called the American residence. For 2 weeks, the 
National Symphony Orchestra takes residence in a State, 
typically a State that's under-served, and conducts 100 master 
classes, teaching demonstrations and workshops in public 
schools throughout the State. We just came back from South 
Dakota a couple of months ago.
    These are just a few of the programs that we embark upon at 
the Kennedy Center. As I said, it's a very rich web of 
programming that we offer to try and bring arts to children 
throughout America.
    Senator Jeffords. What will this project do to increase or 
enhance that mission?
    Mr. Kaiser. I think several things. No. 1, we have no real 
facilities at the Kennedy Center for education. There's not one 
classroom at the Kennedy Center, even though we have hundreds 
of thousands of children and classes coming to the Kennedy 
Center each year. This facility, the new facility, would allow 
us to house real educational programming at the Center, but 
equally importantly, would give us the facilities to broadcast 
our educational programming throughout America. We have no 
studio, even though we do the distance learning programming. 
There is no studio for us to be able to house and to broadcast 
from at the Kennedy Center. The exhibition space we anticipate 
itself would allow us to bring children and adults to the 
Kennedy Center to learn about the rich heritage of the arts in 
America, and again, equally importantly, we would make a 
virtual museum on line that would bring all of the exhibitions 
at the Center available to people in their classrooms and their 
homes.
    The second building, which would house rehearsal 
facilities, would be open to the public and would allow the 
public for the first time at the Kennedy Center to see how art 
is put together, which we believe is a very important part of 
the educational process. So there are many ways that we think 
these new buildings will allow us to enhance substantially our 
educational programming.
    Senator Jeffords. When I had the responsibility of the D.C. 
educational system some years back, I went and visited a 
program where they were teaching math through music.
    Mr. Kaiser. Absolutely.
    Senator Jeffords. Has that been enhanced?
    Mr. Kaiser. Yes, sir, there are two ways that has been 
enhanced. No. 1, again, the Arts Edge web site now brings that 
information to teachers all over America. You don't have to 
come to Washington in order to learn how to, for example, use 
music to teach physics or use music to teach math. Equally 
importantly, we have instituted several programs that bring 
teachers from all over America to the Kennedy Center at our 
expense and we actively are training teachers who then go back 
to their home cities and serve not just the students in that 
population but also serve as models for other teachers in their 
locations.
    Senator Jeffords. I was fascinated by the programs you 
have, and appreciate them.
    Mr. Kaiser. Thank you, Mr. Chairman.
    Senator Jeffords. Mr. Kaiser, can you discuss the need for 
the added rehearsal space in the education center, and how will 
this project help fulfill your goal of the Kennedy Center as 
the enhanced vision of this Nation's living arts memorial?
    Mr. Kaiser. Yes, Mr. Chairman. The Kennedy Center when it 
was originally constructed left out several important 
facilities, and one of which was rehearsal facilities. We have 
no rehearsal facility that is large enough to adequately 
rehearse an opera, for instance, yet we have 26 weeks a year of 
opera performances in our opera house. We have no facilities 
for rehearsal that allow the public to watch rehearsals. We 
have no facilities for rehearsal that allow adequate dance 
rehearsals, and yet we are becoming the largest presenter of 
ballet and modern dance in the world.
    We need the facilities to be able to continue to bring the 
best of art to Washington and to our Nation's capital. So I 
believe the rehearsal facilities would allow us to fulfill our 
mandate as the national arts center.
    Senator Jeffords. This project obviously will represent a 
major public-private partnership, and obviously have some 
funding necessities. Can you explain what is needed and how you 
intend to be able to pay for it?
    Mr. Kaiser. Yes, Mr. Chairman. We anticipate that the cost 
of building the two new buildings, which would be entirely 
borne by private contributions, would be approximately $250 
million. We would embark upon a serious capital campaign to 
raise that $250 million. Our preliminary studies suggest that 
that money will be available to us, although it will be a 
challenge over the next several years to find that money.
    We are blessed that this project will take so long, which 
will give us a little extra time to find the money. We are 
very, very comfortable that the growth in private funding to 
the Kennedy Center, not just from local citizens, but our 
increased fund raising throughout the Nation, in fact 
throughout the world, will allow us to raise this money. There 
is a tremendous interest in this major new arts facility which 
would be the largest arts project in this Nation in the next 
decade.
    Senator Jeffords. Thank you very much. I have one more 
here. Mr. Tangherlini, you mentioned that inadequate access to 
the facility by public transit is a major issue for the Kennedy 
Center. How will this project improve this problem, and what 
will the District do to help improve the situation in the 
meantime?
    Mr. Tangherlini. The lack of mass transits access is 
compounded by the lack of pedestrian access. The closest mass 
transit station is one half mile from the Kennedy Center. But 
it might as well be 10 miles when you look at some of the 
difficulties you as a pedestrian would have to navigate to get 
from the mass transit station to the Kennedy Center. So that in 
and of itself makes the mass transit access even much worse for 
the Kennedy Center.
    We are currently engaged in a broader effort to study 
transit routes, transit alternatives routes, additional transit 
routes in the District of Columbia. The Kennedy Center, 
particularly through the Kennedy Center access proposal, is 
certainly one of the places that we're looking at getting 
better access to, between existing transit opportunities and 
potential ones that we could develop.
    Senator Jeffords. What will the District do to improve the 
situation in the meantime?
    Mr. Tangherlini. Currently the District of Columbia is 
supporting efforts like the Georgetown bids commuter shuttle, 
from the Foggy Bottom station. That shuttle ties in nicely with 
the Kennedy Center shuttle itself. We are also working with the 
Kennedy Center to try to find better ways to provide pedestrian 
access as well as guiding systems, signs that tell people how 
to get to the Kennedy Center. That hasn't been as well 
developed as it could.
    But as Administrator Peters said, there is only so much you 
can do when you have a place that is isolated by so many 
freeways and parkways that is so difficult to get to.
    Senator Jeffords. Is the District committed to improving 
public transit to the facility after the project's completion?
    Mr. Tangherlini. Absolutely. The District is committed to 
improving access to the Kennedy Center. We continue to have a 
very good relationship with the Kennedy Center and Mr. Kaiser 
in particular, and the Mayor is very supportive of the Kennedy 
Center. If there are ways we can assist the Kennedy Center in 
connecting it with the rest of the city, we would definitely be 
committed to that.
    Senator Jeffords. And how would that be accomplished?
    Mr. Tangherlini. Again, through programs like the 
Georgetown bids circulator, through specific pedestrian 
improvements, signage, developing transit alternatives that 
look at the Kennedy Center as a major trip generator, source of 
potential riders, and including them in our broader transit 
planning with the Metropolitan Area Transit Authority, WMATA or 
Metro.
    Senator Jeffords. When the Kennedy Center site was chosen, 
the location of the Roosevelt Bridge was an issue. Today, 
access to the bridge remains an important issue. Today, many 
believe that the bridge and access to the bridge are a serious 
issue for the Kennedy Center and many northwest residents.
    Can you discuss the challenges of bridge access and how 
this project can improve the current access problem?
    Mr. Tangherlini. Absolutely. The volume of commuter traffic 
across the Roosevelt Bridge and on the Parkway creates a 
barrier and isolation from the northwest in particular, they 
have to cross much of that traffic to get to the Kennedy 
Center. Usually the shows start right at the height of rush 
hour, the ones that most people are trying to get to.
    So this, by separating the local street network from the 
commuter road network, would allow better access to the system, 
would allow for better flow of the commuter traffic as well as 
allowing access through the local road network to the Kennedy 
Center. We believe that as we look at the Roosevelt Bridge, 
which has really begun to reach its engineering useful life, 
and ask the questions, start asking fundamental questions about 
access, we have to look at that bridge as well, and say, how do 
these two projects relate, ask ourselves as the District, have 
our needs changed over time as it relates to these particular 
two pieces of infrastructure.
    Senator Jeffords. Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. Let me ask Mr. 
Kaiser about the consideration of operating results in 
conjunction with the project. One will be adding programmatic 
efforts at the same time one is trying to raise money for 
capital projects. Are operating results now in a position where 
they can be supportive of expanding additional programmatic 
efforts that would be associated with it? What kinds of 
challenges are posed there in fund raising? How does that all 
interrelate to the viability of the financial underpinnings of 
the project?
    Mr. Kaiser. Thank you, Senator. It's a very important 
point. We have to separate very carefully the fund raising 
activities for the new buildings from those for operations. 
Because one doesn't want to raise money for the buildings and 
cannibalize operating resources. We have been very encouraged 
that this current fiscal year that started in October, just 
after September 11, we will increase our contributed funds 25 
percent over the year before, the privately contributed funds. 
There's a tremendous interest in the Kennedy Center programming 
and there's a growing number of donors from throughout this 
area, but also throughout the Nation who want to support the 
work of the Kennedy Center.
    We have done some detailed work in-house to study whether 
there will be a group of donors who do not currently fund 
operations but who might be interested in funding a large 
capital venture. We are very confident that we will be able to 
develop a separate set of funding sources for these two 
buildings.
    Senator Corzine. But you will also be increasing your 
operating expenditures when you add these new facilities, or 
are plans in place, or are the operating results adequate to 
support the additional programmatic efforts?
    Mr. Kaiser. I believe so, Senator. The buildings will only 
open at the earliest 9 years from now. What we would hope to 
do, and I think what any cultural institution would hope to do 
is, as you start to identify new donors who pay for the capital 
is to turn them, once the building is built, into operating 
funders. They are invested in the buildings.
    We are also confident that the increase in contributed 
funds that we've experienced for operations will allow us to 
build steadily the education and artistic programming that we 
have at the Center during the construction period.
    Senator Corzine. Do the plans in construction of the site 
contain contingency overruns in the way that was described with 
regard to the transportation activities?
    Mr. Kaiser. Yes, absolutely. In fact, the original estimate 
for the rehearsal building was substantially less than what we 
are currently estimating that we need to raise privately. Our 
hope is that we can actually build the buildings for less than 
we are estimating from private funds and to use any excess as 
endowment to support the ongoing operations of those 
activities.
    From my experiences building another large facility, I 
recently built the Royal Opera House in London. What we found 
was that again, the donors who paid for the building became 
invested in the operations of the building and we were able to 
increase our annual fund raising 25 percent the year after we 
opened the building. So I'm very comfortable that we will find 
the resources, and I'm very comfortable that we will be able to 
support additional programming during the time we are building 
the buildings.
    Senator Corzine. Do you have any contingency plans on 
cutbacks if there are necessary adjustments to the program? Are 
those identified?
    Mr. Kaiser. We identify those annually in our budgeting 
process. So we have a very, very sophisticated financial 
control system now that allows us to cut back as we need to. I 
have ideas of where we could cut back in the future, if we felt 
we had a long term need to reduce the size of our operations. 
None of those cutbacks affect educational programming 
whatsoever. We have the ability, particularly, to reduce the 
number of certain performances that are of more cost to the 
Kennedy Center.
    Senator Corzine. Thank you, Mr. Chairman, Mr. Kaiser.
    Senator Jeffords. So the last question I have for you is 
the air rights. Do you have to purchase those air rights?
    Mr. Tangherlini. I'll take a stab at it, Mr. Chairman. The 
air rights are controlled, we've actually done some analysis, 
and much of them are controlled by the District of Columbia. 
That would be an agreement that would have to be negotiated 
between the District of Columbia and the Kennedy Center. We 
have a legislative branch that would involve themselves in 
those discussions as well.
    Mr. Kaiser and I both met with the Mayor and the District 
of Columbia is very supportive of this project and would look 
very favorably and try to develop the most favorable terms 
possible for the air rights related to this project.
    Senator Jeffords. Ms. Peters, do you have any comments on 
the air rights?
    Ms. Peters. Mr. Chairman, as was indicated, sometimes these 
can be difficult issues. Generally, when there is a will to 
negotiate air rights, such as exists between the Kennedy Center 
and the District of Columbia here, they can be negotiated. 
We've looked at these issues around the country and we believe 
that there is a good foundation for negotiating the air rights 
issue here.
    Senator Jeffords. I want to thank you all for coming. I'm 
excited, also, it's an awesome goal that you have established. 
I look forward to working with you to see if we can make this 
project a reality. I just praise you for the work that's been 
done. We have a number of other problems, other than the 
questions of the structures that we have to obviously try to 
find answers to as well.
    I certainly am excited and looking forward to working with 
you. That should indicate the way I feel about the project, I 
think, as to what this committee, I will request to them. I 
thank you very much for your appearance today. Very helpful.
    The hearing is adjourned.
    [Whereupon, at 9:45 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]

       Statement of Mary Peters, Administrator, Federal Highway 
           Administration, U.S. Department of Transportation

    Thank you for the opportunity to appear before you today to discuss 
ways to improve access to the John F. Kennedy Center for the Performing 
Arts. With me are Arthur Hamilton, Associate Administrator, Federal 
Lands Highway Core Business Unit, and Douglas Laird, a Community 
Planner who has led the Federal Highway Administration (FHWA) efforts 
on the Kennedy Center study for the past 3 years.
    Much of the information I will discuss is drawn from the Kennedy 
Center Access Study, mandated by section 1214 of the Transportation 
Equity Act for the 21st Century (TEA-21) and transmitted to Congress in 
March 2001. The Access Study was a cooperative effort of the John F. 
Kennedy Center for the Performing Arts, the District of Columbia 
Department of Public Works, the National Park Service (NPS), and FHWA. 
The Access Study follows from the National Capital Planning 
Commission's Legacy Plan (1997), which first envisioned a plaza over 
the Potomac Freeway to connect the Center with the surrounding 
community. A project steering committee of senior staff from each 
cooperating agency guided the study, which examined a broad range of 
alternatives for improving access, mobility, and safety to and around 
the Center. In addition, the Access Study sought input from over thirty 
other organizations with interests in the future of the Center and its 
surroundings. Four public open houses were held during the study and 
presentations were made to local citizen groups.
    The 2001 Department of Transportation and Related Agencies 
Appropriations Act (section 378 of P.L. 106-346) provided $10 million 
for ``planning, environmental work, and preliminary engineering of 
highway, pedestrian, vehicular, and bicycle access to the John F. 
Kennedy Center for the Performing Arts in the District of Columbia.'' 
An environmental assessment is now underway and is expected to be 
complete in February 2003. Preliminary engineering is proceeding as 
part of the environmental assessment. It will be completed in enough 
detail to provide for conceptual review and approval actions from 
Federal agencies in the spring of 2003.
    My comments today will focus on the need for access improvements, 
some preliminary information about the potential costs of those 
improvements, and ways of structuring a plan for their implementation.

                                 NEEDS

    In its dual roles as the Nation's showcase for the performing arts 
and a living memorial to the late President Kennedy, the Center 
attracts over 5 million visitors a year. Two million patrons enjoy the 
Center's rich cultural offerings, while three million more come to 
visit the building and memorial. The Center is prominently located on 
the banks of the Potomac River in the city's Monumental Core. Its 
proximity to regional highways and transit facilities are part of the 
Center's success in drawing visitors and patrons alike. However, the 
construction of Interstate 66 (I-66) and compromises in the Center's 
design, including its placement between the Interstate and the Potomac 
River, have resulted in conditions that can make the final leg of a 
journey to the Center challenging, particularly for visitors who arrive 
by bicycle or on foot.
    Patrons who attend nighttime performances at the Center must travel 
at the end of Washington's evening rush hour. Drivers face a host of 
challenges. Their principal problem is chronic recurring congestion, 
stemming from the truncation of I-66. These connections were left 
unresolved when development of a larger Inner Loop Freeway was 
abandoned in the early 1970's. Intersections along the Rock Creek and 
Potomac Parkway (hereafter referred to as the Rock Creek Parkway), Ohio 
Drive, and Virginia Avenue are not only congested, they also suffer 
high accident rates.
    The roads around the Center are heavily used. Nearly 200,000 
vehicles traverse the complex of ramps and roadways adjacent to the 
Center throughout the day. Improvements must ensure that these volumes 
are served and that traffic is not backed up onto the Roosevelt Bridge 
or diverted onto neighborhood streets.
    Patrons who do not drive to the Center face even greater 
challenges. There is no direct pedestrian or bicycle path to the Center 
from the east or southeast from the National Mall, and there are 
inadequate connections from the riverfront. Pedestrians and bicyclists 
who approach the Center from the south along the Potomac River 
encounter a dangerously narrow portal on the east side of the Rock 
Creek Parkway under the Roosevelt Bridge. Pedestrians are frequently 
observed to dash across the Parkway near a blind corner on the Center's 
southwestern corner. Visitors who might stroll along the river from 
Georgetown face an indirect, unlit, and underdeveloped path. The Center 
is disconnected from E Street, which ends in a series of elevated ramps 
at the Center's entrance. In the absence of clear walkways, pedestrians 
improvise a hazardous footpath and sprint across I-66. On the Center's 
southeast corner, the bicycle connection to the Custis trail crosses an 
I-66 off-ramp.
    The Foggy Bottom Metro station is half a mile from the Center-an 
uncomfortable walking distance for many patrons. The Center runs a 
highly successful Show Shuttle transit service that ferries visitors 
between Metro and the Center. However, the route is indirect and runs 
on local streets through an historic neighborhood. Visitors who choose 
to walk have difficulty finding their way to the Center, since it is 
not visible from the Metro station and there are no directional signs 
to guide them.

                                REMEDIES

    The Kennedy Center Access Study presented many improvements that 
would make getting to and from the Center safer and easier, while 
dramatically improving the Center's setting and the West End's 
cityscape. Major elements of the overall improvement package identified 
through the Access Study are outlined below.
    <bullet> Kennedy Center Plaza: The centerpiece of the proposed 
design is a plaza, set atop a deck over I-66, that would provide a new 
public space and stately approach to the Center from the east. The 
plaza would be connected to E and 25th Streets, thus reestablishing the 
local street grid. I-66 immediately east of the Kennedy Center would be 
modified to accommodate traffic beneath the plaza. The plaza, using 
Interstate air rights, would contain a large public square and two 
building sites. We understand the Center intends to develop these 
buildings to house exhibits on the performing arts and provide 
administrative and rehearsal space for the Center and the Washington 
Opera. The plaza would create a rare opportunity to define new civic 
space in the Monumental Core.
    <bullet> Riverfront Access: A grand open stairway (with elevators 
for the handicapped) would link the Kennedy Center terrace to the 
riverfront promenade, where a floating dock could serve river boats. 
The open design would preserve views to the river from the Rock Creek 
Parkway . These changes would facilitate pedestrian, bicycle, and river 
access and restore an important element of the building's original 
design.
    <bullet> E Street Approach: E Street would be modified at its 
western terminus to link the Center with President's Park and the core 
of the City. Through-traffic would continue to use the E Street 
expressway below the plaza, while local traffic would use an improved 
surface-level street connected to the plaza.
    <bullet> Traffic and Safety North of the Kennedy Center: New 
connections would be built between the Rock Creek Parkway and I-66 in 
the vicinity of K Street. This would improve the Interstate's 
directness and convenience, diverting traffic from the Parkway to I-66. 
Reduced through-traffic on the Parkway would improve the riverfront 
promenade for pedestrians and cyclists. The improvements would also 
relieve congestion and address safety hazards at the Virginia Avenue, 
Rock Creek Parkway, and 27th Street intersections.
    <bullet> Traffic and Safety South of the Kennedy Center: The 
complex intersection of Ohio Drive with the terminus of I-66 and Rock 
Creek Parkway would be grade-separated to relieve hazardous conditions 
and congestion.
    <bullet> Transit Improvements: The E Street improvements would 
allow the Kennedy Center Show Shuttle to travel a direct route, thereby 
avoiding neighborhood streets. Alignment options for possible future 
light rail service, which could provide direct access to the Center, 
would be preserved.
    <bullet> Pedestrian and Bicycle Improvements: The plaza and 
connecting facilities would provide new linkages between the Kennedy 
Center and the surrounding community. Safe bicycle connections would 
also be provided to the Custis/I-66 trail across the Roosevelt Bridge.
    <bullet> Signing Improvements: Effective directional signs for 
through and local pedestrian, bicycle, and vehicular traffic would be 
installed.
    <bullet> Parking Improvements: The area below the plaza would 
provide at least 500 new parking spaces. This parking would meet the 
needs of the plaza's new buildings, ensuring that traffic generated by 
the site could be accommodated without intruding upon the scarce 
parking supply in the surrounding neighborhood. It could also serve the 
Kennedy Center's overflow parking needs.
    We understand that these proposed improvements have been 
coordinated with, and are consistent with, the garage expansion and 
related site improvements that are part of the Center's comprehensive 
building renovation plan.

                                 COSTS

    Building the improvements described in the Access Study will be 
complex and challenging. I would also like to emphasize that throughout 
the course of the Access Study no specific funding sources for the 
various improvements were identified nor were funding plans developed 
for the improvements.
    A preliminary capital cost estimate was developed during the Access 
Study. To put the estimate into perspective, several caveats must be 
kept in mind:
    <bullet> The estimate was based on preliminary conceptual designs. 
The plaza's final configuration and the designs of other improvements, 
including any security enhancements, are likely to change as 
engineering proceeds. More will be known once the environmental 
assessment and preliminary design now underway are completed.
    <bullet> Gross quantity estimates were derived from visual 
inspections and adjusted from base-mapping with engineering experience. 
They are not based on accurately measured quantities, since no such 
data has been available through this stage of the project's 
development.
    <bullet> Estimates were based on typical unit costs for 
infrastructure construction in the District of Columbia in 1999 and 
were adjusted during the Access Study to the year 2000.
    <bullet> Due to the very preliminary nature of the estimates, costs 
were not adjusted to reflect inflation over the period of final design 
and construction, roughly estimated to be 8-10 years.
    <bullet> Improvements at the base of the Roosevelt Bridge will rely 
in part on the outcome of a current bridge study. The District of 
Columbia is now in the third year of examining bridge conditions. 
Bridge options could range from minor structural and geometric 
improvements to complete bridge reconstruction on a new alignment. The 
process for identifying, reviewing, and finalizing options could take 
several more years.
    <bullet> Access Study costs were developed to provide a rough idea 
of the resources required to implement the improvements and nothing 
else.
    Table 1 provides a summary of these initial rough estimates. 
Initial site investigations are only now beginning and costs are likely 
to rise as additional conditions affecting construction are revealed. 
For example, a major sewer line (known as the Dulles Interceptor) was 
brought to our attention in May 2002. An area below the Center was 
built around these sewers, which run along the Center's length. The 
sewers will limit circulation from the Center's parking garage to the 
new parking area below the plaza and will require us to reconsider how 
traffic from the Center will reach westbound I-66 and the Roosevelt 
Bridge. Such is the nature of conceptual design. Cost estimates can 
only achieve greater certainty as concepts are refined and a thorough 
engineering analysis is undertaken.

Table 1.--Preliminary Estimated Capital Costs (Plaza and Access) in year
    2000 Dollars for Kennedy Center Access Study Area Long-Range Plan
                              Improvements
------------------------------------------------------------------------
                                                                 Cost
                        Plan Element                          (millions)
------------------------------------------------------------------------
Center Sector:
  <bullet> Plaza, including surface-level E Street                  $223
   connection to 23rd Street and 500 parking spaces on one
   level beneath the plaza.................................
  <bullet> Riverfront Connection...........................           13
North Sector                                                          11
South Sector                                                          19
E Street (21st to 23rd Streets)                                       13
    Total..................................................         $269
------------------------------------------------------------------------

    A summary of the capital and operational costs associated with the 
improvements is provided below. Capital cost estimates define the 
construction and engineering costs associated with designing and 
building the proposed improvements, while operations and maintenance 
costs give insight into the ongoing, recurring costs required by the 
new infrastructure.

                             CAPITAL COSTS

    Preliminary capital cost estimates for the conceptual plan were 
developed using typical unit costs for infrastructure construction in 
the District of Columbia. These estimates are based on quantities 
estimated through visual inspections. No exploratory work was 
undertaken in their development. Table 1 summarizes the estimated 
capital costs for major plan elements. The principal cost is for the 
reconfiguration of roadways and the construction of the plaza over I-
66. The estimated cost of this improvement is approximately $223 
million (all costs are in year 2000 dollars), and it includes the 
construction of a new, surface-level E Street connecting the plaza to 
23rd Street. It also includes one level of parking (approximately 500 
spaces) beneath the plaza.
    The plaza portion of the project presents a complex challenge, and 
this difficulty is increased by the need to coordinate the construction 
of two buildings within the plaza. The plaza and buildings cannot be 
built independently, because ancillary building infrastructure (such as 
waste sewers and utilities) must be carried to the building along or 
within the plaza deck itself. The project must rise as a single, 
coordinated enterprise.
    Table 1 does not include any costs for the two buildings within the 
boundaries of the plaza except for grading and excavation of their 
footprints as part of developing the total area beneath the plaza for 
parking and relocated roadways. Plaza costs assume the buildings will 
be built. If the buildings are not built, the cost to fill these two 
spaces, totaling 100,000 square feet in the plaza, would add another 
$25.5 million to the $223 million plaza costs (in unadjusted year 2000 
dollars).
    The costs reflected in Table 1 include one level of parking beneath 
the plaza (approximately 500 spaces). They assume that excavation, 
columns, and foundations are part of the deck costs and that the cost 
for parking includes flooring, ceilings, walls, and outfitting the 
space for parking.
    Roadway and pedestrian/bike path costs were estimated using 
District of Columbia Department of Transportation (DDOT) standards for 
materials, including bituminous asphalt for the primary roadways and 
concrete pavement with granite curbing for plaza roads. Rock excavation 
costs were calculated for lowering I-66 and constructing parking under 
the plaza. Roadway excavation/demolition was included for the removal 
of existing roadways that would be abandoned under the new design.
    The plaza construction cost assumes a concrete deck and steel 
girders with the deck and girders totaling approximately five feet in 
depth. This is the deck depth required to support roadways and 
vehicular traffic. The two new buildings will have their own support 
systems. All bridges and overpasses are assumed to consist of concrete 
decks with steel girders. Retaining walls are assumed to be reinforced 
concrete with footings.
    Landscaping and urban design costs include normal landscaping 
components as well as specific features and surface treatments. For the 
plaza area, these include special surface treatment for accommodating 
outdoor events on the public square, a fountain feature, building 
entrance zones, and side/rear yards for the buildings.
    The cost estimate also includes basic mechanical and electrical 
systems for areas underneath the plaza. The roadway area under the 
plaza would not be a tunnel; it would be open on three sides. The best 
engineering assessment at this time is that full-scale mechanical 
ventilation systems would not be required. However, this issue should 
be further analyzed during the design phase after the size of the plaza 
and final roadway configurations have been determined. In addition, 
fire and emergency access requirements should be determined at that 
time.
    A 40 percent contingency was added to the estimated construction 
costs. A 15 percent planning and design fee, a 15 percent construction 
management fee, a 10 percent engineering/administrative fee, and a 10 
percent maintenance of traffic through construction work zones fee was 
then applied to the post-contingency cost estimates to yield the total 
capital cost.
    The capital costs outlined above are for a traditional design-bid-
build contracting mechanism. A design-build contract might prove 
advantageous to coordinate the design and construction of the plaza 
with its associated buildings, but it would come at a higher cost and 
require moneys in advance. In contrast, design-bid-build contracting 
comes with more certainty about fiscal costs, but at the expense of a 
delayed schedule, which in itself will cause costs to rise with 
inflation.

                    OPERATIONS AND MAINTENANCE COSTS

    Operation and maintenance of the improvements identified in the 
Access Study would incur continuing costs. These costs would include:
    Lighting. An extensive overhead lighting system would be required 
under the plaza, using standard lighting fixtures on the roadway 
sections. If special lighting fixtures were used on the plaza, 
maintenance costs would be slightly higher. Street light lamps would 
typically be replaced on a 4-year cycle. Overhead lights under the 
plaza should be re-lamped on a 2-year basis. Electrical power for the 
lighting systems would be the only operational cost.
    Ventilation (if required). If subsequent design studies determine 
that the areas beneath the plaza require ventilation, carbon monoxide 
detection, closed-circuit television, heat detection and traffic 
control systems, regular service would be needed to ensure the systems 
are functioning properly. These systems would require electrical power.
    Mechanical. Lowering the grade of I-66 may require a storm water 
pumping station. If a pumping station is needed, the sump pumps would 
require regular maintenance. Operational costs would be minimal.
    Structural. This includes normal bridge or structural maintenance 
items such as drainage system cleaning, concrete repair, girder 
painting, graffiti removal, leak sealing, etc. Annual costs would be 
minimal for many years, but the long-term costs for maintaining a large 
elevated structure would be significant. A comprehensive maintenance 
program that would keep drains operating, cracks sealed, and girders 
rust free would extend the life of the structure. A major 
rehabilitation project should be expected in approximately 30 years.
    Roadway. Items to be maintained include pavement, pavement 
markings, striping, curbs and gutters, and sidewalks. Pavement markings 
would need replacing every 5 years. Pavement, curbs and gutters, and 
sidewalks have an expected lifetime of 20 years between major 
rehabilitations. Minor maintenance, such as pothole and sidewalk 
repairs, would occur annually or when required.
    Signs. Signs would require maintenance to repair knockdowns (from 
accidents) and graffiti removal. If overhead signs are used under the 
plaza, they would require regular maintenance to replace bulbs and/or 
lighting fixtures on the sign structures. There would also be some 
costs for electrical service.
    Landscaping. Trees and shrubs would be trimmed and/or pruned on a 
regular schedule and replaced when necessary.
    Snow and Ice Control. All roadway surfaces would require 
application of abrasives and/or salt during inclement winter weather.
    Cleaning. All roadways would require regular sweeping and flushing, 
and the roadsides should be kept free of litter.
    Annual maintenance costs, except for the regular replacement of 
streetlight lamps, snow removal, and cleaning would be relatively low 
for many years. After 10 years or so, annual costs would start to rise 
as various elements reach the end of their service lives. Major 
rehabilitation work should be anticipated in 30 years. The costs for 
maintenance and operation for all elements of the new deck, pedestrian 
bridges, and roadways are estimated at approximately $100,000 per year. 
This estimate is based upon current DDOT expenditures for major 
roadways.

                       ROLES AND RESPONSIBILITIES

    With a complex and highly visible project of this nature, the roles 
of each agency responsible for the enterprise must be described as 
carefully as the project itself. We know that strong institutional 
arrangements and clear understandings of responsibilities are critical 
to keeping the project on schedule and containing costs. These 
agreements will provide a firm foundation for success, but they must 
build in sufficient flexibility so the parties can adapt to unforeseen 
circumstances.
    A detailed memorandum of agreement (MOA) is the best way to meet 
these goals. This would provide the various agencies with a complete 
understanding of their requirements and allow their roles to evolve as 
the project progresses. The agencies involved include the John F. 
Kennedy Center for the Performing Arts, DDOT, NPS, and FHWA. Elements 
of the MOA are outlined below.
    For each party, the MOA would identify:
    <bullet> Jurisdictional and maintenance responsibilities for the 
project;
    <bullet> Administrative, financial, and project implementation and 
management oversight;
    <bullet> Engineering and other services in connection with the 
survey, design, construction, and improvements of the project.
    The body of the MOA would identify individual agency roles in more 
detail including:
    <bullet> Lead agency for project development and what this entails, 
such as final design approval and funding requirements and 
responsibilities.
    <bullet> Cooperating agency or agencies and what this entails, such 
as providing consultant assistance contracts, permits, and right-of-way 
plans.
    <bullet> Definition of the standards under which the project is to 
be designed and constructed, such as American Association of State 
Highway and Transportation Officials (AASHTO) design standards for 
roads and National Building Code and National Electrical Code for 
buildings.
    <bullet> Final disposition of as-built plans and project records.
    <bullet> Responsibilities for providing comments and concurrences 
on milestones in the development and implementation of the project.
    <bullet> Funding and how it is provided, and in accordance with 
what applicable rules and regulations it will be administered.
    The MOA would also include standard clauses required by law, 
including references to the Anti-Deficiency Act, Non-Discrimination, 
Prohibitions on Lobbying, and coordination of responsibilities under 
the Federal Tort Claims Act.

                               CONCLUSION

    In conclusion, Mr. Chairman, FHWA is committed to work with the 
Kennedy Center, the District of Columbia, the National Park Service, 
and others at the Federal and local level on possible access 
improvements to the Kennedy Center that would improve the safety and 
efficiency of all transportation modes in its vicinity. We look forward 
to working with this Committee over the coming years to ensure that the 
transportation system around the Kennedy Center serves the Center and 
all residents in the best possible manner.
    Thank you again for the opportunity to discuss the results of the 
Kennedy Center Access Study. I will be happy to respond to any 
questions you may have.

                                 ______
                                 
      Statement of Dan Tangherlini, Director, D.C. Department of 
                             Transportation

    Good morning Chairman Jeffords and members of the Committee on 
Environment and Public Works. Thank you for this opportunity to speak 
before the Committee. My name is Dan Tangherlini and I am acting 
director of the Department of Transportation, District of Columbia 
Government.
    The John F. Kennedy Center for the Performing Arts is a major 
national tourist attraction and the Washington Region's premiere 
entertainment venue. In the year 2000, the U.S. Department of 
Transportation published the Kennedy Center Access Study that was 
authorized by Congress in 1998. The District Department of 
Transportation participated in this Study and is assisting in the 
subsequent environmental analysis currently underway.
    The District Department of Transportation recognizes the Kennedy 
Center's severe transportation access constraints. The 2000 Study 
documents the problems including:
    <bullet> The series of freeways and parkways surrounding the Center 
which serve to isolate it from both District neighborhoods and the 
National Mall;
    <bullet> Evening commuter traffic congestion on the Rock Creek and 
Potomac Freeway and ramps to the Theodore Roosevelt Bridge which 
interferes with performance-bound traffic to the Center;
    <bullet> An absence of pedestrian and bicycle facilities offering 
safe and direct routes to the Center; and
    <bullet> Inadequate access to the facility by public transit. The 
study notes that the Foggy Bottom Metrorail Station, the Metrorail 
Station closest to the Kennedy Center, is one-half mile away.
    The centerpiece of the proposed transportation access improvements 
would be the creation of a plaza, which would carry E Street NW 
directly into the Kennedy Center. This plaza would be created by 
constructing a deck over the Potomac Freeway. The plaza could include a 
public square and two building sites on either side of the extended E 
Street NW.
    The District Department of Transportation strongly supports 
transportation improvements, which will eliminate the Kennedy Center's 
physical isolation and connect the Center with the Foggy Bottom 
neighborhood and the Monumental Core of the City. We also support the 
aesthetic vision of restoring the L'Enfant Plan street grid and 
economic opportunities that may be created by the project.
    We respectfully suggest that the Federal Government should fund 
this project through a special appropriation which would not impact the 
District's annual allocation of Federal Aid, and that the Federal 
Highway Administration should construct the improvements.
    The Center's initial design concept provided pedestrian access to 
the Potomac River and vehicular access from the Rock Creek and Potomac 
Parkway, yet, due to funding constraints, the Kennedy Center was built 
in its isolated environment. The level of improvements recommended by 
the study to correct the original access deficiencies is extensive. The 
Access Study places the cost of improvements at $269 million. By 
contrast, the District Department of Transportation spent approximately 
$255 million in construction activity in fiscal year 2001. Our entire 
annual apportionment and allocation for the current fiscal year is $126 
million.
    The District Department of Transportation cautions that the 
proposed improvements should not be considered independently of the 
District of Columbia's transportation network. The District is 
currently engaged in a study to develop solutions to the structural and 
operation constrains of the Theodore Roosevelt Memorial Bridge. The 
Kennedy Center access project should be closely coordinated with the 
bridge study.
    In turn, both of these projects must be considered within a larger 
context of land use and transportation planning in the West End. To 
adequately address transportation problems in the area, including the 
Kennedy Center, a comprehensive approach should include a corridor 
encompassing the Whitehurst Freeway, Lower K Street, and the Roosevelt 
Bridge.
    In its discussion of the Kennedy Center in the Legacy Plan, the 
National Capital Planning Commission states that a successful 
transportation plan must extend beyond physical improvements and that 
behavioral changes must also occur. It explains that employers must 
develop traffic management programs to reduce congestion and travel 
times.
    A comprehensive transportation planning approach to solutions will 
truly weave access to the Kennedy Center into the transportation fabric 
of the District of Columbia.
    Thank you again for the opportunity to provide this testimony.

                               __________

 Statement of Michael Kaiser, President of the John F. Kennedy Center 
                        for the Performing Arts

    Mr. Chairman and Members of the Committee: My name is Michael 
Kaiser. As president of the John F. Kennedy Center for the Performing 
Arts, I am pleased to be able to appear before you today to lend my 
strong support for legislation that will increase substantially access 
to the performing arts, and to arts education, for children and adults 
in the District of Columbia and throughout the United States. If 
enacted, the legislation before you will buildupon the success of the 
Kennedy Center since its founding in 1971 by providing greatly enhanced 
physical access to those living in or visiting the District of Columbia 
and by creating the resources required to improve the services the 
Kennedy Center can offer outside of the District in all fifty states of 
the union. This legislation, therefore, provides a natural development 
of the original vision for the Kennedy Center.
    The Kennedy Center is both our national arts center and a living 
memorial to President Kennedy. I emphasize the word ``living'' because 
unlike other memorials whose beauty and majesty lie primarily in their 
structures, the importance of the Kennedy Center also lies within the 
people whose lives it touches. Each year, thousands of musicians, 
dancers, actors and actresses bring performances to life. Over 5 
million schoolchildren in all 50 states benefit from our outreach and 
educational programs each year. Millions of patrons enjoy performances 
at the Kennedy Center and millions of tourists visit simply to see our 
nation's tribute to President Kennedy.
    I am proud of all that the Kennedy Center has done to meet its 
national mandate. The reach of the Kennedy Center has grown beyond what 
anyone could have envisioned when the National Cultural Center was 
first authorized in 1958. But much more remains to be done. The 
proposal before this Committee will ensure that the Kennedy Center's 
physical facilities can support our enhanced vision of this nation's 
living arts memorial in two important ways.
    First, the legislation will expand access to the Kennedy Center. 
The reconfiguration of the roadways and the construction of a new Plaza 
will make physically accessing the Kennedy Center more user-friendly. 
Traffic will be routed more directly to the Kennedy Center and new bike 
trails and pedestrian paths will make alternative methods of access a 
reality.
    These changes not only will provide pragmatic physical access, but 
also will finally link the Kennedy Center to the rest of the District. 
Currently the Kennedy Center is an island in a sea of roadways. As 
envisioned in the Department of Transportation's report, the 
reconfigured roadways, bike trails and pedestrian paths will link the 
Kennedy Center more directly to other important landmarks and the Mall. 
More than four decades after it was envisioned, the Kennedy Center will 
finally become linked to the heart of our capital's memorials on the 
Mall.
    Access will be increased not only in a physical sense, but also in 
terms of the potential audience. With the expansion of the Kennedy 
Center through the creation of the Plaza and the construction of two 
buildings on the Plaza, more opportunities for reaching new audiences 
can be realized. The increased green space around the Kennedy Center 
makes consideration of outdoor concerts viable. New rehearsal space 
expands the possibility of master classes or a greater variety of new 
pieces created for smaller venues. The greater the variety of the 
artistic works that can be brought to the Kennedy Center, the broader 
the audience that the Center can reach--a vital goal for an arts center 
charged with serving a multicultural nation.
    The proposal will also help the Kennedy Center fulfill another 
important part of its mandate--to educate the Nation about the 
performing arts. One of the new Plaza buildings will be dedicated 
solely to that mission. The new building will house displays on the 
history of the performing arts, drawing from the collections of the 
Library of Congress and the Smithsonian Institution. Visitors will also 
be able to experience life in the arts through interactive displays 
that allow visitors to take part in such activities as conducting an 
orchestra or designing sets and costumes.
    The future of the performing arts in our Nation is dependent on 
educating children about this nation's rich arts heritage and the joy 
of involvement in the arts. This new building dedicated to educating 
our citizens about our nation's rich performing arts history and 
increasing an understanding of the potential of our arts future is an 
essential component to fulfilling the Kennedy Center's role as our 
nation's cultural center.
    I am proud of all that the Kennedy Center has accomplished over the 
last 31 years. It has sealed its place as the center of our nation's 
performing arts; it has honored President Kennedy's memory with 
continuous arts performances; and it has educated generations of 
Americans about all that is great in our nation's performing arts.
    The Kennedy Center is now prepared to buildupon its success in this 
new century. As in the past, we will work in partnership with Congress 
to bring this shared vision of an expanded national performing arts 
center to life. The new buildings on the Plaza will be constructed with 
privately raised funds. This will be no small undertaking on the part 
of the Kennedy Center. However, I am confident the private funds 
required can be identified. The growing enthusiasm for the activities 
of the Kennedy Center can be seen in the increasing levels of private 
support we have enjoyed recently. This fiscal year, alone, the Kennedy 
Center will raise more private money than ever before in its history, 
increasing contributed revenue 25 percent over the prior year during a 
difficult economic period.
    I feel confident, therefore, that the partnership and shared vision 
that have bolstered the Kennedy Center to a level of success not 
imagined at its inception will bring this project to fruition. Everyone 
at the Kennedy Center is deeply grateful to this Committee for its 
consideration of this legislation and its past support and especially 
to you Mr. Chairman for your continuing interest in the arts and 
education of this nation. We would also like to acknowledge the 
tremendous support we have received from the Department of 
Transportation and Secretary Mineta and the District of Columbia and 
Mayor Williams.
    I stand ready to work with Congress, with the Department of 
Transportation and with the District of Columbia to realize this vision 
for our nation's art center and am confident that our historic 
partnership will bring unimaginable benefits to our Nation through an 
expanded and more accessible John F. Kennedy Center for the Performing 
Arts.

</pre></body></html>
